No. 19-867

In the Supreme Court of the United States

SHELLA A. KHATRI, M.D., ET AL.,
Petitioners

v.
KAREEM GARRETT, ET AL.,
Respondents
CERTIFICATE OF COMPLIANCE

Thereby certify that the Brief in Support of Petition for Writ of Certiorari in the above case
contains 6,269 words within the meaning of Sup. Ct. R. 33.1. In making this certificate, I have
relied on the word count of the word-processing system used to prepare the document, and I ama
member of the bar of the Court. A copy of this certificate has been served on counsel for petitioners

and respondent Kareem Garrett.

    

SEAN A. KIRKPATRICK
Senior Deputy Attorney General

Z
Executed on February 10, 2020
